IN THE
SUPREME COURT OF THE UNITED STATES

JAMES FELTON, PETITIONER
vs.
UNITED STATES OF AMERICA, RESPONDENT

CERTIFICATE OF WORD COUNT
NOW COMES Petitioner James Felton, by and through his counsel, Devin
McLaughlin, Esq., of Langrock Sperry &Wool, LLP, and certifies the following:
1.

The number of words in the Petition is 6,029 as indicated by the word

count of the Microsoft Office 365 word processing system used to prepare the
brief, and the number of lines of text is 457 as indicated by the same system.
DATED at Middlebury, Vermont this 21st day of September, 2021.
LANGROCK SPERRY &WOOL, LLP

Devin McLaughlin
PO Drawer 351, 111 S. Pleasant Street
Middlebury, VT 05753
(802) 388-6356
Attorneys for Petitioner James Felton
1315700.1

